March 31, 2011

DEAN J. GRANHOLM
VICE PRESIDENT, DELIVERY AND POST OFFICE OPERATIONS

DAVID E. WILLIAMS
VICE PRESIDENT, NETWORK OPERATIONS

SUBJECT: Audit Report – Overtime Usage (Report Number HR-AR-11-003)

This report presents the results of our audit of the U.S. Postal Service’s overtime usage
(Project Number 10YG021HR000). Our objective was to determine the reasons for
increases in Postal Service overtime usage in fiscal year (FY) 2010.1 This self-initiated
audit addresses financial and operational risks. See Appendix A for additional
information about this audit.

The Postal Service faces a number of challenges, which are compounded by the
current economic environment. This includes a continuing decline in mail volume
combined with a growing number of delivery addresses. From 2006 to 2010, mail
volume declined 19.7 percent, from 213 billion pieces to 171 billion pieces while, on
average, 1.4 million new addresses have been added every year. In addition, the Postal
Service experienced a net loss for FY 2009 of $3.8 billion and a net loss for FY 2010 of
$8.5 billion. Given these challenges, the Postal Service has to ensure it manages mail
operations effectively and efficiently.

On April 1, 2010 an article in FederalSoup.com2 stated that reports filed with the Postal
Regulatory Commission (PRC) showed that the Postal Service paid bargaining unit
employees approximately $1.3 billion in overtime during the first 6 months of FY 2010.
This reflected an increase of $56 million over the same period last year. We initiated this
audit to assess the reasons for the significant increases in overtime in light of the
declining mail volume.




1
  The original objective “to assess whether the Postal Service is effectively managing overtime usage and determine
the reason for significant increases in overtime usage” has been changed to “determine the reason(s) for increases in
overtime usage in FY 2010.”
2
  FederalSoup.com, dated April, 1, 2010
http://www.federalsoup.com/forum_posts.asp?TID=23324&PID=217976&title=usps-reduces-staff-and-increases-ot
Overtime Usage                                                                                             HR-AR-11-003



Conclusion

We reviewed the Postal Service’s overtime usage in FY 2010 and found it paid
$2.86 billion in overtime compared to $2.44 billion in FY 2009, representing an increase
of 17.2 percent, or $419.5 million3. We also determined that, although overtime usage
increased, overall workhours were reduced by 77.3 million and costs by $1.51 billion
during this period. According to management, this increase in overtime usage was due
to a reduction in personnel, mail rerouting, and equipment deployment delays and
updates. We found that these things contributed to increased overtime usage and that
the Postal Service did not effectively plan for overtime usage as it exceeded its planned
overtime hours by 67.8 percent in FY 2010.

Overtime Usage Increased

The Postal Service’s overtime hours used in FY 2010 exceeded overtime hours used in
FY 2009 by 14.3 percent (or 9.6 million hours) at a cost of $419.5 million. In FY 2010,
39,220 employees left the Postal Service (20,897 from the voluntary early retirement
authority (VERA)4 incentive and 18,323 through attrition) which contributed to these
increases in overtime. While the reduction in personnel was an intended outcome of the
VERA, Postal Service officials stated there were places that had more attrition than
workload decreases and other places where there was not enough attrition to account
for the decreased workload. They also stated that because Article 12 requires the
Postal Service to provide up to 180 days notice, whenever possible, before moving
employees, they could not match workforce to workload at the onset of the VERA.

In addition, we found that management used overtime to offset the increased workload
at network distribution centers (NDC) that resulted from the national network conversion
of bulk mail centers to NDCs.5 We also found that the Flats Sequencing System6 (FSS)
deployment delays also contributed to overtime usage. See Appendix B for our detailed
analysis of this topic.




3
   Data obtained from Enterprise Data Warehouse (EDW) Labor Utilization Report and EDW Overtime Workhours
Detail Report.
4
  VERA allows agencies that are undergoing substantial restructuring, reshaping, right-sizing, transfer of function or
reorganization to temporarily lower age and service requirements in order to increase the number of employees
eligible for retirement.
5
  According to the NDC Communications Plan, dated May 2009, existing bulk mail centers will be realigned into three
tiers of NDCs. Tier 3 sites will be the gateway sites for consolidating mail.
6
  One daily activity of Postal Service letter carriers is to manually sort flat mail into delivery sequence order. Examples
of flat mail include magazines, large envelopes, newspapers, and catalogs. The Postal Service uses high-speed
automated equipment to perform this function for letter mail, but carriers currently handle the flat mailpieces manually.
To improve this process, the Postal Service is developing the FSS.


                                                            2
Overtime Usage                                                                             HR-AR-11-003



Planning

Although the Postal Service had a number of issues contributing to its increase use of
overtime, we found that management did not effectively plan for overtime usage.

Specifically, the Postal Service exceeded overtime costs by $1.15 billion in FY 2010.
Chart 1 shows that the Postal Service used less than its planned overtime hours by
14.3 percent in FY 2009; however it exceeded its planned overtime hours by 67.8
percent in FY 2010, with the Western Area having the greatest variance (104.9
percent)7. This occurred because management did not account for the reduction in
personnel, the impact of mail rerouting or equipment deployment delays when
developing their FY 2010 plan; nor did they make the necessary adjustments as
significant changes occurred. As a result, the budget was not accurate and the
anticipated cost savings and efficiencies the Postal Service expected to realize from
VERA and other potential cost savings initiatives may not have been fully realized. In
addition, at a time when the Postal Service is experiencing record losses, accurate
budget planning is important to ensure effective management of its resources. See
Appendix B for our detailed analysis of this topic.

                      Chart 1: Actual and Planned Overtime Hours by Area
                                    FY 2010                                  FY 2009
          Area                                  Percentage                               Percentage
                        Actual      Planned      in Excess      Actual       Planned      in Excess
                                                   of Plan                                  of Plan
      Northeast       12,261,730    6,844,405       79.1%      10,447,850   10,298,022       -17.4%
      Eastern         10,575,005    6,303,294           67.8    8,805,133   11,189,431         -20.1
      Western         12,248,823    5,977,493          104.9    9,925,738   11,877,355         -23.4
      Pacific          6,647,009    5,293,719           25.6    6,067,733    7,533,214          -9.5
      Southwest        7,563,838    4,292,503           76.2    6,541,255    5,247,938         -15.6
      Southeast        8,996,004    5,680,758           58.4    8,506,694    9,643,524          -5.8
      Great Lakes     10,389,534    5,776,781           79.8    9,764,503   10,205,093          -6.4
      Capital Metro    7,179,835    4,952,882           45.0    6,259,923    6,681,777         -14.7
      Other              259,965     249,505             4.2     261,426      522,779           0.6
      Total           76,121,743   45,371,340       67.8%      66,580,255   73,199,133       -14.3%

We recommend the vice president, Delivery and Post Office Operations, and the vice
president, Network Operations:

    1. Develop and implement a plan to attain alignment between current workload and
       workforce levels, by location, to ensure effective and efficient use of Postal Service
       resources.

    2. Ensure significant changes impacting operations and resources are accounted for
       in the budget plan.
7
    Data obtained from eFlash.


                                                   3
Overtime Usage                                                                                  HR-AR-11-003




Management’s Comments

Management agreed with the recommendations, stating with regard to recommendation
1, that Headquarters Operations currently identifies opportunities to align workload and
workforce levels by location to ensure effective and efficient use of Postal Service
resources. Management stated they will continue to manage this alignment through
constant use and monitoring of their Breakthrough Productivity Initiatives, strategy
development, and oversight attainment. In addition, they will communicate their findings
to area-level management, and closely administer the variance programs for each
operation. In February 2011, they began holding monthly8 discussions with each area
vice president and manager, Operations Support, on productivity, workhour, and
overtime performance in the form of business reviews. Management stated in
subsequent communications that part of their process includes weekly tracking of the
progress toward each strategy by area; and Operations provides "recovery plans" to the
areas showing the levels of workhour and overtime usage that must be adhered to for
the remainder of the year in order to achieve the fiscal plan if slippage has occurred.
Finally, management indicated they will develop a budget plan, that addresses the
alignment issues identified in the report. They expect to complete this plan by the end of
the summer 2011.

Regarding recommendation 2, management stated when they make significant changes
that impact operations and resources, they will communicate those changes in writing,9
to Headquarters Finance. Currently, when slippage occurs in planned workhours,
overtime hours, performance to national strategies, and/or service performance, each
Headquarters Operations department supplies the field with reports and graphs. These
illustrate the level of performance necessary for the field to attain planned goals for the
remainder of the fiscal year in order to adhere to the original plan. Management stated
its efforts to implement our recommendations are ongoing. See Appendix C for
management’s comments.

Evaluation of Management’s Comments

Management agreed with the findings and recommendations, and their corrective
actions planned should address the issues identified in the report.
The OIG considers all recommendation significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. These recommendations should not be closed in the
Postal Service’s follow-up tracking system until the OIG provides written confirmation
that the recommendations can be closed.




8
  Management stated in subsequent communication with the OIG (email dated March 30, 2011) that these reviews
are conducted monthly.
9
  Management stated in subsequent communication that they would communicate changes to Finance in writing.


                                                      4
Overtime Usage                                                             HR-AR-11-003



We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Andrea Deadwyler, director,
Human Resources and Security, or me at 703-248-2100.

     E-Signed by Mark Duda
  VERIFY authenticity with e-Sign




Mark W. Duda
Deputy Assistant Inspector General
 for Operations

Attachments

cc: Frank Neri
    Jim Herrmann
    Corporate Audit and Response Management




                                           5
Overtime Usage                                                                HR-AR-11-003



                     APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

The principal objectives of Postal Service compensation policies are to provide
compensation for Postal Service work that is comparable to compensation paid for
comparable levels of work in the private sector of the U.S.

Postal Service overtime is a premium eligible employees receive for work performed
after 8 paid hours in any 1-service day or 40 paid hours in any 1-service week. The
overtime rate is one and one-half times the basic hourly rate. The Fair Labor Standards
Act (FLSA) also requires payment of overtime wages to employees who work in excess
of 40 hours in an FLSA work week.

The Postal Service has designed its payroll system with the controls necessary to
ensure that it pays all employees properly and in compliance with FLSA requirements.
There are two different time card reporting procedures which are followed based on the
type of overtime to be paid to the employee – overtime for time actually worked and
overtime guaranteed for time not worked. It is the supervisor’s responsibility to review
time cards and either approve or disapprove the overtime.

The Postal Service faces a number of challenges, which are compounded by the
current economic environment. This includes a continuing decline in mail volume
combined with a growing number of delivery addresses. From 2006 to 2010, mail
volume declined 19.7 percent, from 213 billion pieces to 171 billion pieces, while, on
average, 1.4 million new addresses have been added every year.

OBJECTIVE, SCOPE, AND METHODOLOGY

Our objective was to determine the reasons for increases in Postal Service overtime
usage in FY 2010.

To accomplish our objective, we analyzed Postal Service regular workhours and
overtime hours used for FY 2008 through FY 2010. We also calculated Postal Service
regular workhour costs and overtime usage costs for FY 2008 through FY 2010.

To discuss increased overtime in FY 2010 and how the Postal Service tracks and
monitors it we interviewed:

    Northeast and Capital Metro area vice presidents.

    Great Lakes, Western, Northeast, and Capital Metro area finance managers.

    Chicago and Southern New England district managers.

    Hawkeye and Northern New England district senior plant managers.



                                            6
Overtime Usage                                                                HR-AR-11-003




    Hawkeye, Northern New England, Southern New England, and Chicago district
     finance managers.

    Washington, DC, and Waldorf, MD postmasters.

    The Carol Stream, IL officer-in-charge.

We judgmentally selected the Western and Northeast areas for review because these
areas used the most overtime in FY 2010. We selected the Great Lakes Area because it
had a lower increase in overtime usage. We also wanted to determine how Great Lakes
officials managed overtime.

We selected the Capital Metro Area because of the numerous hotline complaints
pertaining to overtime usage which resulted in a referral we made to OIG’s Office of
Investigation during the audit.

We also interviewed headquarters personnel who assist area offices in forecasting fiscal
year overtime budgets to learn about the budget process and timelines.

We reviewed the Employee Labor Relations Manual for any relevant information on the
Postal Service’s responsibilities related to overtime. In addition, we reviewed contracts
between the Postal Service and the four major unions for overtime process.

We conducted this performance audit from April 2010 through February 2011 in
accordance with generally accepted government auditing standards and included such
tests of internal controls, as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusion based on our audit objective. We discussed our
observations and conclusions with management officials on January 31, 2011, and
included their comments where appropriate.

To perform this audit we relied on computer-generated data from eFlash and EDW. We
assessed the reliability of eFlash and EDW data by reviewing existing documentation
related to the data sources for FY 2010 and performed reasonableness checks of data
extracted from eFlash and EDW. Additionally, we corresponded with a Postal Service
official knowledgeable about eFlash data. Based on our tests of the computer-
generated data from these systems, we determined that the data were sufficiently
reliable for the purposes of this report.




                                            7
   Overtime Usage                                                              HR-AR-11-003



   PRIOR AUDIT COVERAGE

                                Final
                    Report                 Monetary
Report Title                   Report       Impact
                                                                   Report Results
                    Number
                                Date
Function 4     MS-AR-10-002   4/26/2010   $79.6 million   The report stated that management
Overtime                                                  should strengthen time and
Workhours                                                 attendance procedures to reduce
                                                          Function 4 unauthorized overtime
                                                          costs. Some Function 4 employees
                                                          clocked in before and clocked out
                                                          after their assigned workhours,
                                                          resulting in 1.2 million and 965,000
                                                          unauthorized overtime workhours for
                                                          FYs 2008 and 2009, respectively. In
                                                          addition, the report stated that
                                                          preventing employees from clocking
                                                          in before and clocking out after their
                                                          assigned workhours is more cost-
                                                          efficient than detecting unauthorized
                                                          workhours after they occur.
                                                          Management disagreed with the
                                                          finding and recommendation to
                                                          implement an automated solution to
                                                          prevent employees from clocking in
                                                          before and clocking out after their
                                                          schedules without approval.




                                          8
Overtime Usage                                                                                       HR-AR-11-003



                                APPENDIX B: DETAILED ANALYSIS

Overtime Usage Increased

The Postal Service's overtime costs in FY 2010 were $2.86 billion compared to
$2.44 billion in FY 2009. Total overtime hours increased by 14.3 percent (or 9.6 million
hours) at a cost of $419.5 million. In addition, the Postal Service exceeded its planned
overtime costs for FY 2010 by $1.15 billion. Overtime workhour costs accounted for
approximately 7.0 percent, 5.7 percent, and 8.2 percent of total workhour costs in FY
2010, 2009, and 2008, respectively (see Chart 2)10. In addition, overtime workhours
occurred in various functions including mail processing, city carriers, and customer
service. Out of the 76,119,321 total overtime workhours, mail processing used
16,554,669; city carriers used 42,150,277; customer service used 11,487,753; and
other functions used 5,926,622 (see Chart 311 on page 8).

Management stated increased overtime usage in FY 2010 was due to a reduction in
personnel, mail rerouting, and equipment deployment delays and updates.

                               Chart 2: Workhour Cost Comparison
     50,000,000,000

                                                                                         3,628,457,177    8.2%
     45,000,000,000
                                                             2,438,197,158    5.7%
                         2,857,737,777    7.0%
     40,000,000,000

     35,000,000,000

     30,000,000,000

     25,000,000,000
                                                                                         44,400,534,820
                         41,019,821,887                      42,533,825,250
     20,000,000,000

     15,000,000,000

     10,000,000,000

     5,000,000,000

                 0
                           FY 2010                             FY 2009                     FY 2008

                                 Regular Workhour Cost          Overtime Workhour Cost




10
   Chart 2 illustrates data obtained from the EDW National Workhour Report and EDW Overtime Workhours Detail
Report.
11
   Chart 3 illustrates data obtained from eFlash.



                                                         9
Overtime Usage                                                                                           HR-AR-11-003



               Chart 3: FY 2010 and FY 2009 Major Function Overtime Usage
 
                     FY 2010 Total Overtime Percentage     FY 2009 Total Overtime Percentage     FY 2010 versus FY 2009
Function Title                Hours         of FY 2010             Hours          of FY 2009      Percentage Change
Mail Processing            16,554,669          21.7%             11,651,387          17.5%               42.1%
City Carriers              42,150,277          55.4%             39,933,386          60.0%                5.6%
Customer Service           11,487,753          15.1%             9,900,152           14.9%               16.0%
Others                      5,929,044           7.8%             5,095,330            7.7%               16.4%
Total                      76,121,743         100.0%             66,580,255         100.0%               14.3%


Reduction in Personnel

According to Postal Service officials, 20,897 employees took advantage of the VERA
incentive. Of these, 18,028 were clerk craft and 2,869 were mail handler craft within the
mail processing and customer service functions. From FY 2009 to FY 2010, the Postal
Service experienced the most significant increases in overtime in mail processing
consistent with the largest reduction in personnel as a result of the VERA.12 While city
carriers accounted for the largest number of overtime hours, their overtime usage did
not increase as significantly as the other functions from FY 2009 to FY 2010.

The Postal Service estimates the net savings from the VERA could be as much as
$650 million13 from FY 2010 through FY 2012; however, because the workload and
workforce were not aligned, there is an increased risk the Postal Service may not fully
realize anticipated savings.

A Postal Service official at the Capital Metro area stated that the area had about 3,286
fewer employees than they had last year. This included approximately 1,717 employees
who opted for the VERA (see Chart 4). Of those employees who left through attrition or
opted for the VERA, 1,556 were clerks; 359 were mail handlers; and 810 were carriers.
The remaining 561 employees were primarily in the maintenance craft or were
Executive and Administrative Schedule (EAS) supervisory employees. The official
stated that reduction in personnel caused overtime increases in the area. The Capital
Metro Area accounted for 9.6 percent of increased overtime usage from FY 2009
through FY 2010; it also accounted for 9.4 percent of the Postal Service's total overtime
in FY 2010.

A Postal Service official in the Great Lakes Area stated that they lost 2,770 employees
as a result o the VERA (see Chart 4). In addition, retirement and attrition were higher
than expected. The area lost another 3,112 employees through attrition in FY 2010. The
employees, who left through attrition or opted for the VERA, consisted of 2,939 clerks;
933 mail handlers; 933 carriers; and 1,077 maintenance, casual, and other non-
bargaining positions. As a result, certain locations had too many employees and not
enough work while others had too much work for the number of employees they had
available.
12
   Postal Service officials also stated they lost another 18,323 employees through attrition in FY 2010. During this
period, the Postal Service was in a hiring freeze and did not hire career employees.
13
   VERA savings equals $650 million estimated as follows: $250 million in FY 2010, $300 million in FY 2011, and
$100 million in FY 2012.


                                                           10
Overtime Usage                                                                                    HR-AR-11-003




Mail Rerouting

We found that the national network conversion of all bulk mail centers to NDCs resulted
in a significant workload increase for the Des Moines NDC. The Postal Service started
the NDC Tier 3 process14 with the Pittsburgh NDC. According to Postal Service officials,
the NDC process in Pittsburgh went so well that management accelerated the NDC
schedule, which included the Des Moines NDC. A large amount of mail was redirected
from other Postal Service facilities to this facility in a short timeframe. Prior to the NDC
conversion in Des Moines, the mail handler complement was 161 and the clerk
complement was 94. As of December 1, 2010, the Des Moines NDC had 282 mail
handlers and 127 clerks. The target mail handler complement of 326 and the clerk
complement of 142 have still not been satisfied. Employees needed to process the
additional mail were not in place at the beginning of FY 2010, resulting in high overtime
rates in the district. Overtime increases at the Des Moines NDC represented 64.4
percent of the Hawkeye District's total overtime increases in FY 2010.

Equipment Deployment Delays and Updates

According to Postal Service officials, the FSS deployment delays attributed to overtime
usage. Since FSS deployments were delayed, workhour savings were not realized in
FY 2010, therefore, some areas had to use overtime for those planned workhours.
Postal Service management originally planned 3,232,450 clerk, mail handler, and mail
carrier workhours savings in FY 2010. However, Postal Service management
redistributed 798,292 FSS workhours back to field budgets based on the deployment
delays. Since FSS machines were not deployed on schedule, city and rural carriers in
the Northeast area had additional work. In addition, management did not fill Northeast
Area rural carrier vacancies, resulting in additional overtime. Northeast Area
management stated city and rural carrier workloads were impacted because carriers
spent more time sorting mail than on the street delivering mail.

A Postal Service official in the Northern New England District stated that the Southern
Maine Processing and Distribution Center had operational changes resulting in higher
overtime usage. He stated that this facility lost their Automated Package Processing
System15 (APPS). Management replaced the APPS machine with two Small Parcel
Bundle Sorters, which were not nearly as efficient as the removed APPS.




14
   Tier 3 NDC locations include Pittsburgh, PA; Des Moines, IA; Denver, CO; and Memphis, TN.
15
  The APPS is an automated parcel and bundle sorting system, which combines state-of-the-art sorting technology
with proven mechanical subsystems.


                                                       11
Overtime Usage                                                                                   HR-AR-11-003




            Chart 4: FY 2010 Overtime Increases, VERA, NDC, and FSS Comparison
                                                                                  FSS
                                          Overtime                     NDC
                                                        VERA                    Machine
                         Area            Increases                     Tier
                                                     Participants              Deployment
                                          (Hours)                      Sites
                                                                                 Delays
                     Western             2,323,085           3,019         5             0
                     Northeast           1,813,880           3,522         2             9
                     Eastern             1,769,872           2,887         4             0
                     Southwest           1,022,583           2,236         2             0
                     Capital Metro         919,912           1,717         3             2
                     Great Lakes           625,031           2,770         3             0
                     Pacific               579,276           2,272         2             0
                     Southeast             489,310           2,433         0             5
                     Other                  -1,461               41        0             0
                     Total               9,541,488          20,897        21           16

Planning

The Postal Service exceeded its budgeted overtime hours by 67.5 percent in FY 2010
(see Chart 5).16

             Chart 5: FY 2010 Comparison to SPLY of Actual and Planned Overtime
     8 0,00 0,0 00
                         75,980,339

     7 0,00 0,0 00                                                                    66,376,718


     6 0,00 0,0 00



     5 0,00 0,0 00
                                                        45,371,340

     4 0,00 0,0 00



     3 0,00 0,0 00



     2 0,00 0,0 00



     1 0,00 0,0 00



                0

                             A ct ua l                   P la nn ed                      SP LY




16
  Chart 5 illustrates data obtained from the EDW Overtime Workhours Detail Report and EDW Overtime Workhours
Detail Report.



                                                       12
Overtime Usage                                                                                       HR-AR-11-003



This occurred because management did not account for or make adjustments based on
the reduction in personnel, equipment deployment delays or the impact of mail rerouting
in the development of their FY 2010 plan. As a result, the budget for overtime and
workhours was not accurate and the Postal Service may not have fully realized the
anticipated cost savings resulting from the VERA and other operational efficiencies.

Postal Service officials stated that they developed the FY 2010 plan during April and
May 2009 and the VERA was not announced until August 2009.17 Management did not
adjust the plan based on anticipated personnel reductions associated with the VERA
and, as a result, they did not budget for the additional overtime required to offset those
reductions and maintain operations.

With regard to mail rerouting, management stated they expedited their plans for
rerouting the mail for the NDC conversion and redirected a large volume of mail to
Pittsburgh, PA; Des Moines, IA; Denver, CO; and Memphis, TN facilities in a short
period of time and used overtime to keep processing that mail. The Postal Service
phased in NDCs from August through November 2009. Postal Service officials stated
that the FY 2010 plan was approved in July 2009 but the NDC implementation did not
start until August 2009. Management did not adjust the plan.

Lastly, management stated the FY 2010 budget included savings from workhour
reductions they expected to achieve from the deployment of FSS; however, since
deployment was delayed, the Postal Service did not realize workhour savings.
Headquarters officials held meetings with field personnel regarding FSS deployment
and delays and provided a schedule showing delays beginning in mid-FY 2009.

The mission of the budgeting process is to help management make informed choices
about the provision of services and capital assets and to promote stakeholder
participation in the process. Management should continually evaluate the program and
financial performance and make adjustments that encourage progress toward achieving
goals.18

Management had knowledge of each of these changes prior to the beginning of the
FY 2010 budget period and could have made the necessary adjustments to the budget
to account for the impact on operations and overtime usage.




17
   On March 27, 2009, the Postal Service posted information about the VERA on its employee website, Liteblue.
However, the Postal Service could not move forward with the VERA until the Office of Personnel Management
approved it in August 2009. The Postal Service budget was approved in July 2009.
18
   Government Finance Officers Association’s Best Practices in Public Budgeting” Principle III – Develop a Budget
with the Approaches to Achieve Goals and Principle IV – Evaluate Performance and Make Adjustments,
http://www.gfoa.org/services/nacslb/


                                                        13
Overtime Usage                                       HR-AR-11-003



                 APPENDIX C: MANAGEMENT’S COMMENTS




                                14
Overtime Usage        HR-AR-11-003




                 15
Overtime Usage        HR-AR-11-003




                 16
